                                  AUDIT




 GOVTRIP USE AND MONITORING BY
 THE U.S. DEPARTMENT OF THE
 INTERIOR—
 BUREAU OF LAND MANAGEMENT




Report No.: WR-IN-BLM-0013-2012   May 2013
                     OFFICE OF
                    INSPECTOR GENERAL
                    U.S. DEPARTMENT OF THE INTERIOR
                                                                                                   MAY 2 '3 2013

Memorandum

To:                   Neil Kornze
                      Principal Deputy Director, Bureau of Land Management

From:                 Kimberly Elmore ~~ Ce~
                      Assistant Inspector General for Audits, Inspections, and Evaluations

Subject:              Final Audit Report- GovTrip Use and Monitoring by the U.S. Department of the
                      Interior - Bureau of Land Management
                      Report No. WR-IN-BLM-0013-2012

       The U.S. Department of the Interior (DOl) spends approximately $250 million a year
through GovTrip on travel, with the Bureau of Land Management (BLM) accounting for about
$41 million of these funds.

        This report is part of our DOl-wide audit of GovTrip and related travel processes and
procedures. Although the contract for a new system is scheduled to replace GovTrip in
November 2013, we found several significant issues specific to BLM that warrant your attention
under the current GovTrip travel system. We plan to issue an audit report to the Deputy
Secretary that will focus on DOl's planned acquisition and use of a new travel management
system.

        We initiated an audit of DOl's GovTrip use and monitoring based on limitations in
GovTrip that we discovered during a prior evaluation, including DOl's and its bureaus' inability
to freely access travel system reports from GovTrip and the uncertainty of the reliability of the
data in those reports. 1 We determined that the risks presented by these limitations were
significant enough to warrant further review.

        The objective of our audit was to assess DOl's implementation, use, and monitoring of
GovTrip as a part of the overall travel system. Specifically, we assessed DOl's ability to
reconcile its various systems to determine whether data and dollars spent are fair and accurate.
The audit scope encompassed fiscal years 2009 and 2010 and included testing of more than 700
travel vouchers and 300 charge card statements across DOl' s bureaus. We also interviewed more
than 100 DOl and bureau personnel involved in the travel process, including approving officials,
intermediate reviewers, and bureau travel leads.

       We conducted this audit in accordance with Generally Accepted Government Auditing
Standards. These standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our

1 " U.S.   Department ofthe Interior's Video Teleconferencing Usage," WR-EV-MOA-0004-2010. December 2011.



                                 Office of Audits, Inspections, and Evaluations I Washington, DC
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We are attaching further detail as to the
objective, scope, methodology, and testing performed during this audit (see Attachment 1).

Background

        Since August 2007, DOI has used GovTrip under a task order from the General Services
Administration’s (GSA) master contract with Northrop Grumman for E-Gov Travel Services
(ETS). GSA’s master contract establishes GovTrip’s general requirements, and DOI’s task order
lays out other specific requirements. GSA’s master contract is set to expire in November 2013, at
which time DOI expects a new system to take the place of GovTrip under a new GSA contract
(ETS-2).

        GSA has selected a single vendor for ETS-2, though the system implementation process
is behind schedule. The bid process was initially delayed by legal challenges from one of the
bidding companies, and a current protest of the award is delaying the process even further. ETS-
2’s general requirements include more internal control points and reporting capabilities, but
much about ETS-2’s specific requirements and controls is still unknown. The unknown and
untested components of the new contract and travel system present both an opportunity and a
responsibility to assess how well BLM uses the current system and to determine ways in which it
can improve prior to the transition to ETS-2.

        Both GovTrip and the pending ETS-2 system have the Federal Travel Regulation (FTR)
as part of their foundation, which provides the regulatory framework for the approval,
processing, and payment of travel costs within the Federal Government. The GovTrip system has
worked in concert with these regulations to facilitate travel planning and payment, as will the
pending ETS-2 when it is in place.

Issues Found During Travel Voucher Testing

       We randomly selected 99 BLM vouchers and their related authorizations from fiscal
years 2009 and 2010. The total amount paid from these vouchers was almost $264,000, which
included about $80,000 paid directly to travelers. We found the following areas of concern:

Missing Documentation and Errors in Expenses

        The FTR require receipts be provided for all expenses greater than $75, as well as all
receipts for lodging expenses, regardless of dollar amount (FTR § 301-52.4). We found 15
vouchers that did not have the required supporting documentation for all travel expenses. These
expenses were almost all for hotel and airfare, often the two highest value expenses on vouchers.
In addition, FTR § 301-10.4 requires the most advantageous and expeditious method of
transportation be used. In general, FTR deems a common carrier to be the most expeditious.
Three vouchers, however, showed the use of the traveler’s personal vehicle (POV) even though
two of the vouchers did not include any support for this decision. The third voucher included a
document showing the use of the POV was more expensive than the common carrier, but the
traveler chose to use the POV anyway with no justification or reduction in reimbursement as


                                                                                                   2
required by the FTR. Personal preference, without appropriate approval or adjustments, is not an
acceptable basis for determining the most expeditious method of transportation.

         We also found eight vouchers that either did not include all the expenses that were listed
in the traveler’s receipts or the amounts shown on the receipts did not match those claimed on
the voucher. For example, one traveler appended receipts for almost $1,200 in expenses but did
not enter any of these charges on the voucher. Another traveler included a receipt for an ATM
advance and fees, but the dates for the advance did not match the time frame for the trip. Five
vouchers had incorrectly calculated per diem, including one that may have improperly double
paid a traveler 5 days of per diem for trips with overlapping dates and an additional 3 days that
should have been personal leave. Two other travelers were paid full per diem for extended trips
even though DOI policy requires per diem be reduced for trips in excess of 30 days unless a
justification is provided as to why full per diem is necessary. One of these travelers received over
$2,000 more in per diem than what was actually paid for the rented accommodations, while the
other traveler was paid full per diem for a trip that lasted 6 months with no documented
authorization or justification for this allowance. This second traveler was overpaid by more than
$3,200.

         In all of these examples, travelers and associated approving officials requested or
approved travel documents with inappropriate travel allowances or failed to document the
justification for variances from normal or reasonable travel allowances. Whenever travelers
request approval for travel plans, they must meet the FTR requirements. Further, when
submitting vouchers for travel, travelers are required to abide by the FTR rules, and approvers
must affirm that the vouchers they are approving meet these requirements. In each of these
examples, neither the traveler nor the approver met these requirements of due diligence.

Authorizations Created After Trip Date

        Of the 99 authorizations selected for testing, 19 authorizations were created or approved
after the trip departure date. Although the FTR does permit this practice, FTR § 301-2.1 states:

       …Generally you must have written or electronic authorization prior to incurring
       any travel expense. If it is not practicable or possible to obtain such authorization
       prior to travel, your agency may approve a specific authorization for
       reimbursement of travel expenses after travel is completed.

         Of the authorizations tested, almost 20 percent failed to meet the general authorization
requirement, but there is no evidence that they met the “not practicable or possible” standard
stated above for the exemption. Further, the practice of creating or approving an authorization
after trip departure could contribute to an internal control breakdown if approvers feel pressured
to authorize already incurred travel expenses due to the financial impacts that would otherwise
fall to the employee who would be responsible for all travel costs incurred.




                                                                                                     3
Flagged Vouchers Without Appropriate Justification

         It is not unusual for vouchers to be flagged by GovTrip’s automatic auditing system,
indicating a potential problem or error in the voucher. Of the 99 vouchers we selected for testing,
9 had insufficient justifications submitted and approved for flagged items. For example, one
voucher had no receipts attached, which GovTrip automatically flagged, but the justification did
not address the reason for the missing documentation. Another traveler responded to the flags
with “ok” as the sole justification for the questioned entries. Flagged exceptions with inadequate
justifications are relatively common, and supervisors routinely stamp these documents approved.

Auto-Approval

         GovTrip includes features that allow travel authorizations to be created without
managerial review or approval. Autobooking is one approach that allows travelers to arrange
travel without supervisory approval. Another approach is T-entering, a method by which an
arranger makes travel arrangements, creates travel documents, and signs the documents on behalf
of the traveler. Both features result in travel being created and booked without the benefit of
managerial or traveler review and approval. We found that 18 of the 99 authorizations tested
used one of GovTrip’s auto-approval features. Auto-approval was developed when all travel
arrangements used a paper-based system and was intended to streamline travel arrangements for
routine mission travel and for cases of emergency travel. Because travelers now arrange travel
electronically, and supervisors approve it electronically, the need for auto-approval is greatly
limited. We found in interviews with travel supervisors and in our review of travel vouchers,
however, that many employees are still authorized to use auto-approval for most travel, even
though much of it is routine and known about weeks or months in advance. Because employees
are authorized to auto-approve their own travel, the internal control safeguard inherent in
obtaining supervisory approval for the use of staff time and travel funds before the trip begins is
being circumvented, thus increasing the potential for fraud, waste, or mismanagement to go
undetected.

Issues Found During Charge Card Statement Testing

        During our audit of the travel process, we learned that the only internal control
mechanism used to ensure the validity of travel charges was the required supervisory review of
charge card statements. When supervisors do not adhere to this internal control, it increases the
risk of management not detecting incorrect or improper charges since there are no other
procedures in place to ensure that supervisors are adequately reviewing and approving both
travel vouchers and charge card statements. Our tests of charge card statements covered only a
fraction of all BLM travel card statements. Unfortunately, in our selection of 46 charge card
statements across several BLM office locations, we found lax supervisory reviews that presented
significant internal control risk, as follows:

Missing Signatures

        Five of the 46 statements tested, almost 11 percent, did not have the required signatures
of both the supervisor and traveler. DOI policy requires supervisors to review statements and


                                                                                                    4
include the signatures of both supervisor and traveler on the statement to show that all charges
have been verified as appropriate and allowable travel expenditures.

Unexplained Transactions

        Of the 46 statements we tested, we found 20 statements with expenses that were not
reported in GovTrip or did not match the expenses reported in GovTrip, with questioned costs
totaling more than $34,000 These included multiple statements with lodging expenses that did
not have corresponding travel vouchers, including one with more than $26,000 in lodging that
the traveler was unable to relate to any supporting documentation. Another statement showed an
unsupported rental car charge of over $1,200. Some statements had credits issued back to the
charge cards, but these credits were not reflected on the travel vouchers, leaving the reported
GovTrip expenses overstated and presenting opportunities for travelers to be over-reimbursed.

        With more than 40 percent of statements in our sample reflecting some sort of
discrepancy, this issue is both a significant internal control weakness and breakdown, not only
because it results in inaccurate accounting and an inability to rely on GovTrip-generated reports
for effective management, but because it is impossible for supervisors to reconcile expenses on
cardholder’s statements with GovTrip vouchers to verify that those expenses were related to an
approved trip. DOI Integrated Charge Card Program Policy Manual, sec. 2.9.2 states that
travelers are required to “[i]nclude a concise, detailed description for each line item…or attach
the travel voucher” on their charge card statements to ensure that all transactions are legitimate.
Several of these questionable expenses appeared on charge card statements with the signatures of
both the traveler and the supervisor, which demonstrates that supervisors are not adequately
documenting the verification of travel charges back to source documents, further reducing the
intended effectiveness of this key internal control.

Conclusion and Recommendations

        Because ETS-2 is still several months from coming online, BLM has an opportunity to
improve travel management practices under the current GovTrip system and through the
transition. Improving internal controls now will help strengthen overall travel management
controls when BLM fully transitions to the new travel system.

   1. BLM should require supervisors to—

       •   verify that vouchers contain supporting documentation as required by the FTR and
           accurately reflect costs incurred during travel;
       •   ensure travel authorizations are created and approved prior to travel, with the only
           exception being bona fide emergency travel;
       •   review vouchers thoroughly and address any unresolved flagged items;
       •   verify and approve all charges on charge card statements; and
       •   ensure that both the traveler and supervisor sign and date charge card statements.




                                                                                                   5
   2. BLM should make changes to correct existing deficiencies, including—

       •   creating and implementing policy limiting the use of auto-approval by employees to
           legitimate emergency travel; and
       •   creating and implementing policy requiring supervisors to reconcile charge card
           statements with travel vouchers.

       In the Assistant Director, Business and Fiscal Resources’ April 5, 2013 response, BLM
concurred with the recommendations (see Attachment 2). We consider the recommendations
resolved but not implemented and will refer them to the Assistant Secretary for Policy,
Management and Budget for implementation tracking (see Attachment 3).

       The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all reports issued, actions taken to implement our recommendations,
and recommendations that have not been implemented.

       No response to this report is required. If you have any questions or need more specific
information about this report’s findings, please contact me at 202-208-5592.

Attachments (3)




                                                                                                 6
                                                                                     Attachment 1


Objective, Scope, and Methodology

        We conducted this performance audit from November 2010 through April 2012 in
accordance with Generally Accepted Government Auditing Standards. These standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

        We also determined whether BLM had designed and implemented a system of internal
controls or travel management controls to provide reasonable assurance that travel vouchers were
accurate and supported; authorizations were created and approved prior to travel; management is
adequately performing oversight of the travel process; and charge card statements were verified,
approved, and signed by the traveler and supervisor. We found weaknesses in BLM's travel
management controls. These weaknesses and recommended corrective actions are discussed in
this report, and if implemented, the recommendations should improve BLM's travel management
controls.

Objective

        Our objective was to assess the U.S. Department of the Interior’s (DOI) implementation,
use, and monitoring of GovTrip as a part of the overall travel system. Specifically, we evaluated
DOI’s ability to reconcile its various systems to determine whether data and dollars spent are fair
and accurate. We also performed testing to ensure that any existing internal controls were
sufficient to reasonably minimize risk of fraud and errors.

Scope

        This was a DOI-wide audit of GovTrip and the related travel system. Our testing included
travel vouchers with travel departures starting in fiscal years 2009 and 2010 along with charge
card statements related to those travel vouchers. In conducting our audit, we visited BLM offices
in—

        •   Denver, CO;
        •   Albuquerque, NM;
        •   Portland, OR; and
        •   Sacramento, CA.

        Our review of the system included both a performance audit of the current ETS contract
(GovTrip, with a contract period from August 2007 to November 2013) and a review of the
future ETS-2 contract language (contract implementation planned for November 2013). We also
assessed DOI’s integrated charge card program as it relates to travel expenditures.

       During the performance of our audit testing, delays in obtaining access to information
and concerns related to timely reporting necessitated a reduction in the sample size and testing of
both vouchers and charge card statements. We took steps, however, to allocate the reduction in

                                                                                                  1
                                                                                       Attachment 1


testing across bureaus, preserving the integrity of our random and judgmental voucher and
charge card statement samples.

Methodology

         The GovTrip contractor, Northrop Grumman, pulled the voucher testing data from
archived databases as we were informed that this would be the most accurate and complete way
to establish the voucher universe by bureau and agency. From this universe, vouchers were
statistically sampled using a stratified methodology, and the associated authorizations were also
examined. Once the testing sample was selected, we performed testing of travel vouchers and
authorizations using the live GovTrip environment. Use of the live GovTrip system environment
for document examination was required since the travel program has no “read only” audit feature
and no alternative data repository is available to DOI.

       Given that our testing was limited to the live data environment, we were not able to
perform “through the system” testing of the software. Thus, we did not perform tests of the
GovTrip system and software itself. Rather, we structured interview questions of key DOI
personnel to ascertain the security of the system and the viability of the input data.

        The National Business Center, Charge Card Support Center (NBC) provided us with the
charge card data. NBC extracted the charge card data from PaymentNet, DOI’s gateway to
integrated charge card program data, which is operated by the contractor J.P. Morgan Chase. We
did not perform a reliability assessment or any system tests for this data, since, like GovTrip, this
is a contractor-developed system, so our testing was limited to structured interview questions of
key DOI personnel to ascertain the security of the system and the viability of the input data.
Once the testing sample was selected, we performed tests in the field to ascertain the accuracy
and reliability of reconciliation efforts between the GovTrip voucher and related charge card
transactions.

Use of Computer-Processed Data

        We used the GovTrip and Integrated Charge Card databases to identify travel vouchers
and charge card transactions for travel departures starting in fiscal years 2009 and 2010. We did
not perform reliability assessments of the quality of the data because this was outside the scope
of our review. Data from these systems were used for document and transaction selection, and
then reviewed using the electronic and hardcopy records available through DOI. Therefore, the
computer-processed data did not affect the performance of our audit steps.




                                                                                                    2
                                                                                   Attachment 2


                  United States Department of the Interior
                             BUREAU OF LAND MANAGEMENT
                                      Washington, D.C. 20240
                                       http://www.blm.gov



In Reply Refer To:                           APR 0S 2013
1245 (W0-830)

Memorandum


To:            Kimberly Elmore
               Assistant Inspector General for Audits, Inspections, and Evaluations

From:         Janine Velasco 1\   n!!uYv~/..vv
              Assistant DirectJr.~1~ess and 'fff1:~ ~ources
Subject:      Response to Office oflnspector General's Draft Audit Report- GovTrip
              Use and Monitoring by the Department of the Interior- Bureau of Land
              Management (WR-IN-BLM-0013-2012)

Thank you for the opportunity to review and comment on the draft audit report titled,
GovTrip Use and Monitoring by the U S. Department of the Interior - Bureau ofLand
Management (WR-IN-BLM-0013-2012). The Office oflnspector General made two
recommendations and the Bureau of Land Management (BLM) concurs with both ofthem.

The attachment provides a summary of the actions planned by the BLM to comply with the
recommendations as well as the contact information for the responsible officials along with the
target date of implementation.

If you have any questions, please contact Alan McConnell, Chief, Accounting Operations
Branch, National Operations Center, at 303-236-6455 or LaVanna Stevenson, BLM Audit
Liaison Officer, at 202-912-7077.


Attachment




                                                                                                  1
                                                                                    Attachment 2



                                   Department of Interior
            Response to the Office of Inspector General Draft Evaluation Report
            "GovTrip Use and Monitoring by the U.S. Department of Interior-
                              Bureau of Land Management"
                                 (WR-IN-BLM-0013-2012)

Recommendation 1: BLM should require supervisors to -
• verify that vouchers contain supporting documentation as required by the FTR and accurately
   reflect costs incurred during travel;
• ensure travel authorizations are created and approved prior to travel, with the only exception
   being bona fide emergency travel;
• review vouchers thoroughly and address any unresolved flagged items;
• verify and approve all charges on charge card statements; and
• ensure that both the traveler and supervisor sign and date charge card statements.

Response: The BLM concurs with this recommendation and since the audit date has been
improving its internal control processes, monitoring and oversight of temporary duty travel
(TDY) and the integrated charge card program. As part of this, the BLM will issue a
consolidated policy to ensure that travelers and supervisors are creating authorizations prior to
starting TDY and ensure that all supervisors are adhering to their responsibilities for review and
approval of all travel vouchers and charge card statements.

Target Date: July 31,2013

Responsible Official: Janine Velasco, Assistant Director, Business and Fiscal Resources and
Ruth Welch, Director, National Operations Center.


Recommendation 2: BLM should make changes to correct existing deficiencies, including:
• creating and implementing policy limiting the use of auto-approval by employees to
   legitimate emergency travel, and
• creating and implementing policy requiring supervisors to reconcile charge card statements
   with travel vouchers.

Response: The BLM concurs with this recommendation. The BLM will issue policy limiting
the use of auto-approval in Gov-trip by employees for emergency travel. The BLM will also
supplement existing policy to ensure that supervisors reconcile charge card statements with
travel vouchers.

Target Date: July 31, 2013

Responsible Official: Janine Velasco, Assistant Director, Business and Fiscal Resources and
Ruth Welch, Director, National Operations Center.



                                                                                                 2
                                                              Attachment 3


Status of Recommendations

    Recommendations             Status              Action Required
                                               The recommendations will be
                                                 referred to the Assistant
                            Resolved but not
          1 and 2                                   Secretary for Policy,
                             implemented
                                                Management and Budget for
                                                tracking of implementation.




                                                                          1
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
